OIG Investigative Reports, Jury Finds Harvey School Board President Guilty of Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Chicago, IL October 10, 2003
Office of the Illinois Attorney General
Contacts: Melissa Merz (312) 814-3118
877-844-5461 (TTY)
mmerz@atg.state.il.us
Jury Finds Harvey School Board President Guilty of Financial Aid Fraud
Chicago – Attorney General Lisa Madigan today said a Stephenson County jury last night found Harvey School Board President and Bloom Township High School teacher Janet Thomas guilty of one count of state benefits fraud, one count of theft from the State of Illinois and one count of theft from the U.S. Department of Education.
All three of the counts are Class 3 felonies, each punishable by up to five years in the Illinois Department of Corrections (IDOC). The jury deliberated for approximately an hour-and-a-half before returning mid-evening with the verdict.
Thomas had been accused of falsifying her income on her son’s financial aid applications for both the state and federal governments. Because of the false information, she was able to help her son, Derrick Fomby, obtain M.A.P. and Pell Grants. Fomby used the funds to attend Highland Community College in Freeport in Stephenson County.
Fomby last week pleaded guilty to the same three charges his mother was convicted of last night. He admitted on the stand during his mother’s trial that he used some of the grant money to buy personal items such as gym shoes.
“Ms. Thomas is a public servant who has violated the public trust,” Madigan said. “She aided her son in taking money that could have and should have gone to young people who truly needed financial aid to pursue their educations. As an educator, she should know the value of learning.”
Thomas was earning $80,000 a year at the time she falsified her income on the applications. She also reaped income from 10 or more rental properties.
Stephenson County Judge Charles Hartman is scheduled to sentence Thomas on April 15 and Fomby on April 23.
According to news reports, both mother and son also allegedly are employed by the City of Harvey.
Assistant Attorneys General Peter Buh and Joelle Marasco prosecuted the case for Madigan’s office.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov